I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

J A C K S O N, RI C H A R D K NI D E R
P etiti o n er
vs.

N o:

2 0- 8 1 1 2

US A
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

E LI Z A B E T H B. P R E L O G A R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
J u n e 0 3, 2 0 2 1
c c:
RI C H A R D K NI D E R J A C K S O N
5 5 1 4 6- 0 3 9
MI L A N F E D E R A L D E T E N TI O N
CE NTER
P O B O X 1000
MI L A N, MI 4 8 1 6 0

